         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Site Inspection Report


       American Recovery and
       Reinvestment Act Site Inspection
       of the Water Distribution System,
       Village of Buckeye Lake, Ohio
       Report No. 10-R-0079

       March 10, 2010
Report Contributors:	                             David I. Kim
                                                  Leah Nikaidoh
                                                  Darren Schorer




Cover photo: Construction on the water distribution system in the Village of Buckeye Lake,
             Ohio. (EPA OIG photo)
                       U.S. Environmental Protection Agency 	                                              10-R-0079
                                                                                                       March 10, 2010
                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment


Why We Did This Review             American Recovery and Reinvestment Act Site
The U.S. Environmental
                                   Inspection of the Water Distribution System,
Protection Agency, Office of       Village of Buckeye Lake, Ohio
Inspector General conducts
site visits of American             What We Found
Recovery and Reinvestment
Act clean water and drinking       We conducted an on-site inspection at the Village of Buckeye Lake, Ohio, in July
water projects. We selected        2009. As part of our inspection, we toured the project, interviewed Village
the water distribution system      representatives and contractor personnel, and reviewed documentation related to
project at the Village of          Recovery Act requirements.
Buckeye Lake, Ohio, for
review.                            Based upon our site inspection, nothing came to our attention that would require
                                   action from the Village or the U.S. Environmental Protection Agency.
Background

The Village received a
$6,615,297 loan from the Ohio
Environmental Protection
Agency and the Ohio Water
Development Authority under
the Drinking Water State
Revolving Fund program.
This loan included $5,000,000
in Recovery Act funds for
principal forgiveness. The
Village will construct water
lines, a water storage tank, and
a booster station. The Village
will also install meters.



For further information,
contact our Office of
Congressional, Public Affairs
and Management at
(202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2010/
20100310-10-R-0079.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                         March 10, 2010

MEMORANDUM

SUBJECT:	 American Recovery and Reinvestment Act
          Site Inspection of the Water Distribution System,
          Village of Buckeye Lake, Ohio
          Report No. 10-R-0079



FROM:          Melissa M. Heist
               Assistant Inspector General for Audit

TO:	           Bharat Mathur
               Acting Regional Administrator, Region 5
               U.S. Environmental Protection Agency

This is our report on the subject site visit conducted by the Office of Inspector General of
the U.S. Environmental Protection Agency. The report summarizes the results of our site
inspection of the water distribution system project at the Village of Buckeye Lake, Ohio.

We performed this site inspection as part of our responsibility under the American Recovery and
Reinvestment Act. The purpose of our site inspection was to determine the Village’s compliance
with selected requirements of the Recovery Act pertaining to the Drinking Water State
Revolving Fund program. The Ohio Environmental Projection Agency approved the Village’s
project. The Village received a $6,615,297 loan, including $5,000,000 in Recovery Act funds
for principal forgiveness.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $44,572.

Action Required

Because this report contains no recommendations, you are not required to respond to this report.
We have no objections to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig. If you or your staff have any questions regarding this
report, please contact Robert Adachi at (415) 947-4537 or adachi.robert@epa.gov, or Leah
Nikaidoh at (513) 487-2365 or nikaidoh.leah@epa.gov.
                                                                                          10-R-0079 



Purpose
The purpose of our review was to determine whether the Village of Buckeye Lake, Ohio,
complied with requirements for subrecipients of American Recovery and Reinvestment Act
funds under the Drinking Water State Revolving Fund program.

Scope and Methodology
Due to the time-critical nature of Recovery Act requirements, we did not perform this
assignment in accordance with generally accepted government auditing standards. We did not
perform certain steps that would allow us to obtain information to assess the Village’s internal
controls and any previously reported audit concerns. As a result, we do not express an opinion
on the adequacy of the Village’s internal controls or compliance with all federal, State, or local
requirements.

We conducted an on-site inspection at the Village during July 28-29, 2009. During our
inspection, we:

       1.	 Toured the project
       2.	 Interviewed Village and contractor personnel
       3.	 Reviewed documentation maintained by the Village or its contractors on the
           following matters:
               a.	 Buy American requirements under Section 1605 of the Recovery Act
               b.	 Davis-Bacon Act wage requirements under Section 1606 of the Recovery Act
               c.	 Contract procurement

We suspended this assignment while we conducted work on another Recovery Act audit. This
suspension delayed our reporting.

Results of Site Inspection
Based upon our site inspection, nothing came to our attention that would require action from the
Village or the U.S. Environmental Protection Agency. We have summarized specific inspection
results below.

       Buy American Requirements

       The project is exempt from Buy American requirements. On June 2, 2009, the U.S.
       Environmental Protection Agency announced a nationwide waiver of Buy American
       requirements for eligible projects where the solicitation of bids was done between
       October 1, 2008, and February 17, 2009. The Village advertised for bids for the
       construction contracts in January and February 2009, prior to signing an assistance
       agreement with the Ohio Water Development Authority (State). The waiver requires the
       recipient to show an objective basis under which the recipient solicited bids in
       anticipation of timely funding. The waiver includes high placement on a priority list as a
       reasonable basis to solicit funds. The State ranked the construction project 11th out of


                                                 1

                                                                                       10-R-0079


       158 projects on the 2009 project priority list. The Village had already received funding
       for project design and for a capacity fee to obtain surplus water from another community.
       The advertisement for bids took place within the waiver timeframe and was done in
       anticipation of receiving funding from the State. Therefore, the Village falls under the
       nationwide Buy American waiver and is exempt from the requirements.

       Davis-Bacon Act

       We reviewed the Village’s compliance with the Davis-Bacon Act, and no issues came to
       our attention. To comply with Davis-Bacon Act requirements, contractors signed weekly
       certified payrolls to certify compliance with Davis-Bacon Act rates. The contractors
       submitted certified payroll reports to the Village’s project engineer. The engineer then
       forwarded the payroll reports to the State. We reviewed certified payrolls and verified
       compliance with Davis-Bacon Act rates.

       Contract Procurement

       We reviewed the Village’s procurement of its contractors, and no issues came to our
       attention. The Village hired four construction contractors, one each for the water
       distribution system, water booster station, water tank, and telemetry. These construction
       contracts were solicited using the sealed bid method. The water distribution system and
       water booster station contracts were awarded to the lowest bidder as lump sum contracts.
       The other two solicitations did not have more than one qualifying competing bid each.

Recommendations
We have no recommendations.

Subrecipient’s Response and Office of Inspector General Comment
On March 4, 2010, we held a conference with the Village to obtain its response to the discussion
draft report. The Village had no specific comments or corrections to the report. The Village
discussed the progress to date on completion of the project. The Village stated that it has been
working for 25 years to get a drinking water system in place, and that the Recovery Act funding
had an important, positive impact on moving the project forward, which will culminate in
improved drinking water quality for the community. We had no further comments.




                                               2

                                                                                                                           10-R-0079



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                 POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                BENEFITS (in $000s)

                                                                                                     Planned
    Rec.    Page                                                                                    Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1    Action Official      Date      Amount      Amount

                                  No recommendations




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                             3

                                                                                  10-R-0079 




                                   Distribution

Office of the Administrator
Acting Regional Administrator, Region 5 (Action Official)
Director, Grants and Interagency Agreement Management Division, Office of Administration
       and Resources Management
Agency Follow-up Official (the CFO)
Agency Audit Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Region 5
Public Affairs Officer, Region 5
Mayor, Village of Buckeye Lake, Ohio
Director, Ohio Environmental Protection Agency
Acting Inspector General




                                             4

